   FORMER PRESIDENT AND CHIEF EXECUTIVE OFFICER
 OF MACE, CORPORATION FOR NATIONAL AND COMMUNITY
           SERVICE SUB-GRANTEE SENTENCED

Ms. Ruby Buck, formerly the President and Chief Executive Officer for the Mississippi
Action for Community Education, also known as MACE -- a non-profit organization
located in Greenville, Mississippi, a sub-grantee of the Congressional Hunger Center,
organized to promote feeding the hungry -- was sentenced on 15 felony counts on
January 4, 2002. The Honorable W. Allen Pepper, Jr., a federal judge in the United
States District Court, Northern District of Mississippi, Oxford, Mississippi, ordered
Ms. Buck to serve forty-one months in federal prison, followed by three years of
supervised probation; to make restitution of $116,751.67, of which $25,000 is to be paid
immediately; and to pay an additional $1,500 court assessment.

On August 24, 2001, Ms. Buck was found guilty in the United States District Court,
Northern District of Mississippi, Oxford, Mississippi, of one count of misapplication of
Corporation for National and Community Service AmeriCorps grant funds and fourteen
counts of submitting fraudulent AmeriCorps participant documents to the Corporation.

As the former President and Chief Executive Officer, Ms. Buck was responsible for the
overall operations of MACE from 1996 until the fall of 2000. Ms. Buck provided
supplemental salaries to MACE employees by fraudulently reporting them to the
Corporation as full-time AmeriCorps members. This enabled the MACE employees,
none of whom were performing AmeriCorps service, to receive the Corporation-funded
AmeriCorps stipends in addition to their salaries provided by MACE. The fraudulent
reporting of MACE employees as AmeriCorps members resulted in the criminal
misapplication of $116,751.67 of Corporation-funded stipends and medical insurance
payments.
